            AUDIT OF THE 

     LANSING POLICE DEPARTMENT'S 

EQUITABLE SHARING PROGRAM ACTIVITIES 

          LANSING, MICHIGAN 



       u.s. Department of Justice
     Office of the Inspector General
              Audit Division

      Audit Report GR-SO-14-002 

            December 2013 

                         AUDIT OF THE

                 LANSING POLICE DEPARTMENT’S

             EQUITABLE SHARING PROGRAM ACTIVITIES

                      LANSING, MICHIGAN


                              EXECUTIVE SUMMARY


       The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the use of DOJ equitable sharing
revenues by the Lansing, Michigan, Police Department (Lansing PD).
Equitable sharing revenues represent a share of the proceeds from the
forfeiture of assets seized in the course of certain criminal investigations. 1
During the period of July 1, 2008, through June 30, 2012, the Lansing PD
received $823,960 in DOJ equitable sharing revenues to support law
enforcement operations. 2

      The objective of the audit was to assess whether equitably shared cash
and property received by the Lansing PD was accounted for properly and
used for allowable purposes as defined by the applicable regulations and
guidelines. We found that the Lansing PD did not fully comply with equitable
sharing guidelines with respect to accounting for equitable sharing receipts
and the allowable use of equitable sharing funds. Specifically, we found:

       •	 The Lansing PD commingled DOJ equitable sharing funds with state
          of Michigan asset forfeiture funds.

       •	 The Lansing PD did not maintain a DAG-71 log for reconciling
          equitable sharing receipts.

       •	 The Lansing PD improperly used $3,061 in equitable sharing funds
          to pay for overtime of a civilian employee.

       •	 The Lansing PD used $12,563 in equitable sharing funds for officers’
          uniform allowance without having proper supporting
          documentation.

       1
           The DOJ asset forfeiture program has three primary goals: (1) to punish and
deter criminal activity by depriving criminals of property used or acquired through illegal
activities; (2) to enhance cooperation among foreign, federal, state, and local law
enforcement agencies through equitable sharing of assets recovered through this program;
and, as a by-product; (3) to produce revenues to enhance forfeitures and strengthen law
enforcement.
       2
           The Lansing PD fiscal year begins on July 1 and ends on June 30.
      In total, we identified $15,624 in questioned costs related to the
Lansing PD’s management of equitable sharing funds. Our report contains
six recommendations to address the weaknesses we identified. Our findings
are discussed in detail in the Findings and Recommendations section of the
report. The audit objective, scope, and methodology are included in
Appendix I.




                                   - ii ­
                                TABLE OF CONTENTS



INTRODUCTION ................................................................................ 1


Background .........................................................................................1


Lansing Police Department.....................................................................2


OIG Audit Approach ..............................................................................2


FINDINGS AND RECOMMENDATIONS................................................ 4


Accounting for Equitably Shared Receipts ................................................4


Compliance with Audit Requirements ......................................................5


Equitable Sharing Agreement and Annual Certification Reports...................5


Monitoring Applications for Transfer of Federally Forfeited Property.............7


Use of Equitably Shared Funds ...............................................................7


Views of Responsible Officials............................................................... 10


Recommendations .............................................................................. 10


APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ................. 12


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS............ 14


APPENDIX III - AUDITEE RESPONSE .............................................. 15


APPENDIX IV - U.S. DEPARTMENT OF JUSTICE RESPONSE ............. 16


APPENDIX V - OFFICE OF THE INSPECTOR GENERAL ANALYSIS

              AND SUMMARY OF ACTIONS NECESSARY TO CLOSE
              THE REPORT .......................................................... 18

                                 INTRODUCTION

      The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the use of DOJ equitable sharing
receipts by the Lansing, Michigan, Police Department (Lansing PD). The
audit covered the Lansing PD’s fiscal years (FY) 2009, 2010, 2011, and
2012. 3 During that period, the Lansing PD received DOJ equitable sharing
revenues totaling $823,960 to support law enforcement operations.

      The objective of the audit was to assess whether equitably shared cash
and property received by the requesting agency was accounted for properly
and used for allowable purposes as defined by the applicable regulations and
guidelines.

Background

      The primary mission of the DOJ Asset Forfeiture Program is to employ
asset forfeiture powers in a manner that enhances public safety and
security. This is accomplished by removing the proceeds of crime and other
assets relied upon by criminals and their associates to perpetuate their
criminal activity against our society. Asset forfeiture has the power to
disrupt or dismantle criminal organizations that would continue to function if
we only convicted and incarcerated specific individuals.

       Another purpose of the DOJ Asset Forfeiture Program is to enhance
cooperation among federal, state, and local law enforcement agencies by
sharing federal forfeiture proceeds through the DOJ Equitable Sharing
Program. State and local law enforcement agencies may receive equitable
sharing revenues by participating directly with DOJ agencies in joint
investigations leading to the seizure or forfeiture of property. The amount
shared with the state and local law enforcement agencies in joint
investigations is based on the degree of the agencies’ direct participation in
the case. The U.S. Department of the Treasury administers its own asset
forfeiture program. Our audit was limited to equitable sharing revenues
received through the DOJ equitable sharing program.

      Although several DOJ agencies are involved in various aspects of the
seizure, forfeiture, and disposition of equitable sharing revenues, the
DOJ Criminal Division, Asset Forfeiture and Money Laundering Section
(AFMLS), is responsible for issuing policy statements, implementing
governing legislation, and monitoring the use of DOJ equitable sharing

       3
         Lansing’s fiscal year begins on July 1 and ends on June 30. Therefore, our review
period was July 1, 2008, through June 30, 2012.
funds. Generally, the use of equitable sharing revenues by state and local
recipient agencies is limited to law enforcement purposes. However, under
certain circumstances, up to 15 percent of equitable sharing revenues may
be used for the costs associated with drug abuse treatment, drug and crime
prevention education, housing and job skills programs, or other nonprofit
community-based programs or activities. This provision requires that all
expenditures be made by the law enforcement agency and does not allow for
the transfer of cash.

Lansing Police Department

      Lansing, Michigan, is the capital of the state of Michigan. It is located
mostly in Ingham County, although small portions of the city extend into
Eaton County. According to the 2010 census, the city’s population is
114,297, making it the fifth largest city in the state of Michigan. The
Lansing PD was formed in 1893 and had a law enforcement budget of
$30,029,430 in FY 2012.

      The city of Lansing Finance Department administers and coordinates
financial services for the Lansing PD. The Lansing PD submits all
expenditure requests to the city of Lansing Finance Department for approval.
Both the Chief of Police and the Mayor of Lansing sign the Equitable Sharing
Agreement and Certification Reports.

OIG Audit Approach

      We tested compliance with what we considered the most important
conditions of the DOJ equitable sharing program. Unless otherwise stated,
we applied the Guide to Equitable Sharing for State and Local Law
Enforcement Agencies, dated April 2009 (Equitable Sharing Guide) as our
primary criteria. The Equitable Sharing Guide establishes reporting and
audit requirements, defines the permissible uses of equitably shared
resources, and identifies the accounting procedures and requirements for
tracking equitably shared monies and tangible property.

      To conduct the audit, we tested the Lansing PD’s compliance with the
following aspects of the DOJ equitable sharing program:

      •	 Accounting for equitably shared resources to determine
         whether standard accounting procedures were used to track
         equitable sharing assets.

      •	 Compliance with audit requirements to ensure the accuracy,
         consistency, and uniformity of audited equitable sharing data.


                                     -2­
     •	 Equitable Sharing Agreement and Annual Certification
        Reports to determine if these documents were complete and
        accurate.

     •	 Monitoring of Applications for Transfer of Federally Forfeited
        Property to ensure adequate controls were established.

     •	 Use of equitably shared resources to determine if equitable
        sharing funds were spent for permissible uses.

     See Appendix I for more information on our objective, scope, and
methodology.




                                   -3­
              FINDINGS AND RECOMMENDATIONS

     We found that the Lansing PD commingled DOJ equitable sharing
     funds with state of Michigan asset forfeiture funds within its
     accounting system. Additionally, we found inaccuracies in some
     of the annual reports the Lansing PD submitted. Further, we
     found that the Lansing PD failed to maintain a log of its equitable
     sharing request forms in accordance with equitable sharing
     guidelines. We also determined that the Lansing PD used
     $3,061 in equitable sharing funds to pay for unallowable
     overtime for a civilian employee, as well as $12,563 in equitable
     sharing funds to pay for an unsupported uniform allowance for
     its officers.

Accounting for Equitably Shared Receipts

       The Equitable Sharing Guide requires that all participating state and
local law enforcement agencies implement standard accounting procedures
to track equitably shared revenues and property. Additionally, DOJ
equitable sharing funds must be accounted for separately from any other
funds. We reviewed equitable sharing receipts to determine if the funds
were properly accounted for and deposited, and we reconciled the agency’s
accounting records to DOJ records of equitable sharing funds provided to the
agency.

       We determined that during FYs 2009 through 2012, the Lansing PD
had 34 receipts of equitable sharing funds totaling $823,960. We reviewed
all 34 receipts, and we found that the Lansing PD accurately accounted for
its deposits of all equitably shared revenues received during these fiscal
years.

      According to the Equitable Sharing Guide, agencies receiving equitable
sharing funds are required to maintain separate accounting records for DOJ
equitable sharing funds. We found that the Lansing PD had commingled its
DOJ equitable sharing funds with state asset forfeiture funds in its
accounting records and could not separately identify the funds as DOJ or
state monies. We recommend the city of Lansing Finance Department
establish procedures to ensure that it maintains its DOJ equitable sharing
funds separately from all other funds in its accounting system.




                                    -4­
Compliance with Audit Requirements

      The 2009 Equitable Sharing Guide requires the Lansing PD to comply
with audit requirements of the Single Audit Act Amendments of 1996 and
Office of Management and Budget (OMB) Circular A-133, Audits of States,
Local Governments, and Non-Profit Organizations (OMB Circular A-133).
OMB Circular A-133 requires non-federal entities to prepare a Schedule of
Expenditures of Federal Awards for the period covered by the auditee’s
financial statements. The Schedule of Expenditures of Federal Awards is
included within the entity’s Single Audit Report.

      To determine if the Lansing PD accurately reported DOJ equitable
sharing fund expenditures on its Schedule of Expenditures of Federal
Awards, we reviewed the Lansing PD’s accounting records and the city of
Lansing Single Audit Reports for the fiscal years ended 2009, 2010, 2011,
and 2012. We found that the city of Lansing did not report any of its DOJ
equitable sharing fund expenditures on its Schedule of Expenditures of
Federal Awards for FYs 2009, 2010, and 2011. The city of Lansing did report
DOJ equitable sharing fund expenditures for FY 2012. However, the
expenditure amount was not accurate. We recommend that AFMLS ensure
that the city of Lansing establishes procedures to ensure that it accurately
reports its equitable sharing expenditures on its Schedule of Expenditures of
Federal Awards.

      Furthermore, the city of Lansing’s Single Audit for FY 2012 contained a
repeat finding related to the capitalization of property purchased with federal
awards, a condition that resulted in the city of Lansing’s capital asset records
being incomplete. Because of this finding, during our testing we reviewed all
property the Lansing PD purchased with equitable sharing funds during the
time period covered by our audit. This testing is further discussed in the Use
of Equitably Shared Funds section of this report.

Equitable Sharing Agreement and Annual Certification Reports

      AFMLS requires that any state or local law enforcement agency that
receives forfeited cash, property, or proceeds because of a federal forfeiture
submit an Equitable Sharing Agreement and Annual Certification Report.
The submission of this form is a prerequisite to the approval of any equitable
sharing request. Noncompliance may result in the denial of the agency’s
sharing request. The Equitable Sharing Agreement and Annual Certification
Report must be submitted every year within 60 days after the end of the
agency’s fiscal year regardless of whether funds were received or maintained
during the fiscal year. The head of the law enforcement agency and a
designated official of the local governing body must sign it. By signing the


                                     -5­
form, the signatories agree to be bound by the statutes and guidelines that
regulate the equitable sharing program and certify that the law enforcement
agency will comply with these guidelines and statutes.

       As part of our audit, we reviewed the methods by which the
Lansing PD prepares its Equitable Sharing Agreement and Annual
Certification Reports. According to city of Lansing officials, after the fiscal
manager prepares the Certification Report, the fiscal manager submits it to
the accounting manager for review. After the accounting manager approves
the Certification Report, it is submitted to the Finance Director for review
and then to the Lansing PD Chief of Police for review.

      We tested compliance with the certification report requirements to
determine if the required Certification Reports for FYs 2009, 2010, 2011,
and 2012 were submitted timely, accurately completed, and were signed by
the appropriate officials. To assess the accuracy of the Certification Reports,
we reconciled the total receipts and expenditures reported to the Lansing PD
general ledger and other documents used by Lansing personnel to prepare
the form. We determined that the Lansing PD Certification Reports for
FYs 2009, 2010, 2011, and 2012 were signed by the appropriate officials.
We also determined that the FY 2009, 2010, and 2011 Certification Reports
were submitted on time, but that the form for FY 2012 was submitted
5 months late.

        While we found that the FY 2012 Certification Report accurately
reported the Lansing PD’s equitable sharing expenditures, we found that
despite the multiple reviews described above, Lansing PD officials did not
notice that when they initially submitted the FY 2009, 2010, and 2011
Certification Reports, the reported figures were inaccurate. Specifically, the
initial Certification Reports for FYs 2009 and 2010 did not reflect any
expenditures of equitable sharing funds, while the initial FY 2011
Certification Report did not reflect the correct amount of expenditures of
equitable sharing funds. According to the city of Lansing fiscal manager,
prior to FY 2009, the city of Lansing Finance Department eliminated some
accounting positions and assigned the duties and responsibility of managing
the Equitable Sharing Program to another departmental staff member.
According to the fiscal manager, this staff member did not know how to
complete the Certification Reports and therefore failed to complete the
reports correctly. In February 2013, the fiscal manager resubmitted the
FY 2009, 2010, and 2011 Certification Reports with corrected information.
We reviewed the re-submitted Certification Reports and found that they
accurately reported Lansing PD equitable sharing expenditures.




                                     -6­
Monitoring Applications for Transfer of Federally Forfeited Property

        According to the Equitable Sharing Guide, the agency that submits the
Form DAG-71, Application for Transfer of Federally Forfeited Property
(DAG-71), should maintain a log and copies of all DAG-71s. 4 A consecutive
numbering system should be used for control purposes, and the log should
contain the date and the amount received. We found that although the
Lansing PD did maintain copies of the DAG-71s, it did not maintain a log to
reconcile its equitable sharing requests with its receipts. The program
manager of the Lansing PD’s Equitable Sharing Program told us that the
Lansing PD Special Operations Unit (Unit) completes the DAG-71s and keeps
copies of the forms, but that no one reconciles the requests to the bank
statements because neither the Unit nor the program manager receives the
e-share notifications. 5 We contacted AFMLS and, after consulting with
Lansing PD officials, determined that the Lansing PD e-share notifications
were being sent to the e-mail account of a retired Lansing PD administrator.
We recommend that the Lansing PD begin maintaining the required DAG-71
log, including copies of the DAG-71s, and reconcile the e-share notifications
(i.e., receipts) to the sharing requests.

Use of Equitably Shared Funds

       The Equitable Sharing Guide requires that the use of equitable sharing
funds received by state and local agencies be limited to law enforcement
purposes. However, under certain circumstances, up to 15 percent of the
total equitable sharing revenues the agency received in the last 2 fiscal
years may be used for the costs associated with nonprofit community-based
programs or activities, such as drug abuse treatment, drug and crime
prevention education, and housing and job skills programs. Law
enforcement agencies can also transfer cash to another law enforcement
agency.

     According to its corrected Certification Reports, the Lansing PD
expended $847,358 in DOJ equitable sharing funds during FYs 2009 through
2012. We judgmentally selected and tested 80 transactions totaling
$276,292, as shown in Table 1. 6


       4
         The DAG-71 is the DOJ form submitted by a state or local agency to the federal
seizing agency to request a share of seized assets.
       5
         E-share notification is the process of electronic payment from the United States
Marshals Service. Participation in the process is mandatory.
       6
           Details on our sampling methodology can be found in Appendix I.


                                            -7­
                          TABLE 1: EXPENDITURE TESTING

 Fiscal Year       2009            2010             2011      2012       Total
  Equitable
   Sharing       $167,303        $204,203         $325,014   $150,838   $847,358
Expenditures
 Amount of
Expenditures      $41,630         $40,097         $162,301   $32,264    $276,292
   Tested
 Number of
Expenditures         17              17              24        22         80
   Tested
 Source: OIG analysis of Lansing PD accounting records

      As previously discussed, the Single Audit for FY 2012 contained a
finding related to inventory controls over property purchased with DOJ
funds. In light of this, we included in our testing sample all 18 property
items the Lansing PD purchased with DOJ equitable sharing funds during our
review period, which included vehicles, riflescopes, and fencing. We found
that all property purchase transactions were supported, all property was
included on the Lansing PD’s inventory records, as appropriate, and all
property was being used for law enforcement purposes.

       However, our review identified issues related to the allowability of
certain transactions and a lack of supporting documentation for other
transactions. Specifically, we found that the Lansing PD used equitable
sharing funds to pay for overtime expenses of $29,970 in FY 2009,
$79,906 in FY 2010, $60,088 in FY 2011, and $5,378 in FY 2012. We
questioned Lansing PD officials regarding these overtime expenses and were
told the overtime expenses were for officers assigned to the Special
Operations Unit. However, we determined that a portion of the overtime
pay was for a non-sworn, civilian employee of the Lansing PD assigned to
the Special Operations Unit. According to the Equitable Sharing Guide, DOJ
equitable sharing funds may be used to pay the overtime expenses for
sworn personnel, not civilians. For the period reviewed, the total amount of
overtime paid to the non-sworn employee was $3,061. We recommend that
this $3,061 in unallowable overtime compensation be remedied.

      In addition, we found that the Lansing PD used $12,563 in equitable
sharing funds to help pay its standard uniform allowance in FY 2009 through
FY 2012. In previous correspondence with AFMLS officials, the OIG was
informed that a standard uniform allowance expense was permissible as long
as the administering agency received receipts for the items purchased.
According to Lansing PD officials, officers did not have to provide receipts in
order to receive their uniform allowance; a portion of their uniform
allowance was automatically prorated to their pay during each pay period.


                                         -8­
We recommend that the Lansing PD be required to remedy a total of
$12,563 in unsupported costs related to its use of equitable sharing funds
for uniform allowance.

Cash Log

      The Lansing PD Special Operations Unit (Unit) is responsible for drug
investigations and undercover operations. The Unit uses funds from the
Lansing PD’s commingled asset forfeiture fund as buy money for special
operations and to pay informants. In order to obtain cash for these
operations, Unit personnel request the amount needed, have this request
approved by senior managers in the Unit, and forward the request to the city
Finance Department. Once approved at the city level, a check is prepared
and provided to an officer from the Unit, who cashes it and brings the
currency to the Unit, where it is secured in a safe.

      We found that the Lansing PD maintained a handwritten log at the Unit
that recorded amounts deposited and amounts removed from the special
operations cash fund. However, after reviewing the cash log, we found that
it was insufficient to ensure the safety of the funds because officials at the
Unit never reconciled it to ensure that the appropriate amount of cash was in
the safe at any given time. We believe this method of handling cash
constituted a risk because there was no way to determine at a particular
time that someone had not improperly removed funds from the safe, even
temporarily.

       We discussed this issue with city of Lansing Finance Department
officials, who said that someone from the Finance Department maintained a
record of the amount disbursed to the Unit and twice a year reconciled the
amount in the safe and the handwritten cash log to the amount recorded in
the Finance Department’s records. After we discussed this issue with
Finance Department officials, the Accounting Manager developed an
electronic cash log for the Unit. We observed that this new log contains a
function to allow Unit supervisors to reconcile the log, the log was being
used, and that the log was accurate in comparison to the amounts kept at
the city Finance Department.

Supplanting

      Pursuant to the Equitable Sharing Guide, equitable sharing revenues
must be used to increase or supplement the resources of the receiving state
or local law enforcement agency. Equitably shared funds shall not be used
to replace or supplant the resources of the recipient. To test whether
equitable sharing funds were used to supplement rather than supplant local


                                    -9­
funding, we interviewed local officials and reviewed the agency’s local
budgets for FYs 2009, 2010, 2011, and 2012. We found that while the
Lansing PD’s budget decreased from FY 2009 through 2012, it increased
from FY 2012 to FY 2013.

      During interviews with Lansing PD officials, we were told that the city
of Lansing does consider equitable sharing revenue when developing
budgets for the Lansing PD. In addition, when we reviewed Lansing PD
budget documents for the fiscal years covered in our review period, we
found that FYs 2009, 2010, and 2011 contained a category called “other.”
Lansing PD officials told us that this “other” category reflected existing funds
in the Lansing PD’s asset forfeiture fund, of which DOJ equitable sharing
revenues were a part. 7

      We did not identify any additional indicators of potential supplanting.
However, we are concerned that conditions in the future could lead to the
possibility that supplanting could occur. As noted in the Equitable Sharing
Guide, DOJ equitable sharing funds should be used to supplement and not
supplant local funding. We recommend that the Criminal Division remind
the Lansing PD of the non-supplanting requirement specified in the Equitable
Sharing Guide.

Views of Responsible Officials

      We discussed the results of our review with Lansing PD and city of
Lansing Finance Department officials throughout the audit and at a formal
exit conference. Their input on specific issues has been included in the
appropriate sections of the report.

Recommendations

We recommend that the Criminal Division:

1.	    Require the Lansing PD to account for DOJ equitable sharing funds
       separately from all other funds.

2.	    Require the city of Lansing to establish procedures to ensure that it
       accurately reports its equitable sharing expenditures on its Schedule of
       Expenditures of Federal Awards.




       7
         As noted earlier in the report, the Lansing PD commingled its equitable sharing
funds with other, non-federal asset forfeiture funds.


                                          - 10 ­
3.	   Require the Lansing PD to establish and properly maintain a DAG-71
      log and reconcile sharing requests with receipts.

4.	   Remedy the $3,061 in unallowable costs related to overtime expense
      for non-sworn personnel.

5.	   Remedy the $12,563 in unsupported costs related to uniform
      allowance expenses.

6.	   Remind the Lansing PD of the non-supplanting requirement specified in
      the Equitable Sharing Guide.




                                  - 11 ­
                                                                APPENDIX I




            OBJECTIVE, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

      The objective of this audit was to assess whether equitably shared
cash and property received by the requesting agency were accounted for
properly and used for allowable purposes as defined by the applicable
regulations and guidelines. We tested compliance with the conditions of the
DOJ equitable sharing program. We reviewed laws, regulations, and
guidelines governing the accounting for and use of DOJ equitable sharing
receipts, including:

      •	 Guide to Equitable Sharing for State and Local Law Enforcement
         Agencies, dated April 2009;

      •	 OMB Circular A-133, Audits of State, Local Governments, and
         Non-Profit Organizations, revised June 2003.

      Unless otherwise stated in our report, the criteria we audited against
are contained in these documents.

Scope and Methodology

       Our audit concentrated on, but was not limited to, equitable sharing
receipts received by the Lansing PD from July 1, 2008, through June 30,
2012. During that period, the Lansing PD received a total of $823,960. We
performed audit work mainly at the city of Lansing Police Department
located in Lansing, Michigan. We interviewed Lansing PD and city of Lansing
Finance Department officials and examined their records of federal asset
forfeiture revenues and expenditures of DOJ equitable sharing funds.

      We selected 16 transactions from FY 2009 totaling $41,487, and 10 of
the sampled transactions were the highest-dollar transactions for FY 2009.
For FY 2010, we selected 17 transactions totaling $40,097, and 10 of the
sampled transactions were the highest-dollar transactions for FY 2010. For
2011, we selected 16 transactions totaling $156,826, and 10 of the sampled
transactions were the highest-dollar transactions for FY 2011.


                                    - 12 ­
Finally, for FY 2012 we selected 3 transactions totaling $24,107, and the
sampled transactions were among the highest-dollar transactions for
FY 2012. In total, we selected 52 transactions totaling $262,517.

       Because of a finding in the Single Audit for FY 2012 related to the
capitalization of inventory purchased with federal awards, we ensured that
our sample included all 18 pieces of property the Lansing PD purchased with
DOJ equitable sharing funds during our review period, including vehicles and
riflescopes.

      In addition, we determined that further testing would be necessary
due to our finding that DOJ equitable sharing funds were comingled. We
organized by type all of the transactions that we had not selected as part of
our original sample. We then reviewed all of these transactions,
judgmentally determined which had the potential of being high risk, and
selected a second sample that consisted of 28 transactions totaling $13,775.
When combined with our initial sample of 52 transactions totaling $262,517,
overall we reviewed 80 transactions totaling $276,292.

      We relied on computer-generated data contained in the DOJ
Consolidated Asset Tracking System (CATS) for determining equitably
shared revenues and property awarded to the Lansing PD during the audit
period. We did not establish the reliability of the data contained in CATS as
a whole. However, when the data used is viewed in context with other
available evidence, we believe the opinions, conclusions, and
recommendations included in this report are valid.

       In planning and performing our audit, we considered internal controls
established and used by the Lansing PD and the city of Lansing Finance
Department over DOJ equitable sharing receipts. We did not assess the
reliability of the Lansing PD financial management system or internal
controls of that system or otherwise assess internal controls and compliance
with laws and regulations for the city of Lansing government as a whole.

      Our audit included an evaluation of the city of Lansing Single Audit
Reports for FYs 2009, 2010, 2011, and 2012. The Single Audit Reports were
prepared under the provisions of OMB Circular A-133. We found that the
independent auditor’s assessment for FY 2012 disclosed one internal control
weakness related to the Lansing PD. Single Audit Report finding 2012-SA-4,
Capitalization of Property Purchased with Federal Awards, was a repeat
finding that caused the city of Lansing’s capital asset records to be
incomplete. In response to this finding, we selected and tested all property
purchased with equitable sharing funds during our review period, as noted
above.


                                    - 13 ­
                                                                         APPENDIX II



             SCHEDULE OF DOLLAR-RELATED FINDINGS

Description                                            Amount        Page


Questioned Costs 8


          Unallowable Civilian Overtime:                   $3,061         8
          Total Unallowable:                               $3,061


          Unsupported Uniform Allowance:                 $12,563          8
          Total Unsupported:                             $12,563


Net Questioned Costs……………………………..$15,624


______________________________________________________


Total Net Dollar-Related Findings……………..$15,624




      8
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.


                                         - 14 ­
                                                                                                APPENDIX III



                                 AUDITEE RESPONSE





                               LANSING POUCE DEPARTMENT
                                            740 May Street
                                         Lansing, 1fl 48933
                                  Phone: (5 17) 483·4600 (TDDNoice)


  Vi>v 8emero, Mayor                                                                Mike Yankowskl, CNef of Police

Carol S. Taraszka, Regional Audit Manager
U.S . Department of Justice
Office of the Inspector General
Chicago Regional Audit Office
500 West Madison Street Suite 1121
Chicago, Illinois 60661 -2590

November 27, 2013

Dear Ms. Taraszka,

The Lansing Police Department acknowledges and concurs with Office of Inspector General's findings.
Please find the following action plans to the auditors' recommendations listed on page 11 of the audit report..
The Lansing Police Department (LPD) agrees to:

    1. Account for equitable sharing funds separately from all other funds. Tlris includes source and use of
       equitable revenue sharing funds.
    2. Establish procedures to ensure that equi~blc sharing expenditures are accurately reported on the
       Schedule of Expenditures of Federal Awards. While the Fiscal Year ended June 30, 2012 reported
       Department of Justice equitable revenuc sharing' expenditures, the amolUlt listed lUlder the
       Department of Justice also included Department of Treasury equitable revenue sharing expenditures.
       This issue has been remedied as of June 30, 2013 by establishing separate accolUlts and should not
       be an issue going forward .
  . 3. Establish and properly maintain a DAG-7l log reconciling sharing requests with receipts. The City'S
       Finance Depanment will reconcile the DAG-71 requests to receipts.
    4. Remedy $3,061 overtime expense for non-sworn personnel. In fiscal year ending JlUlc 30, 2014, the
       City will document, but not report, the apPropriate amount of e}l:penses that would otherwise be
       eligible uses of equitable revenue sharing proceeds.
    5. Remedy the $12,563 in unsupported uniform allowance expenses. In fiscal year ending June 30,
       2014, the City will document, but not report, the appropriate amount of expenses that would
       otherwi se be eligible uses of equitable revenue sharing proceeds .
                  •
Thank you for your consideration of the above.


Sin~

B!f
Chi~:c~wili

             "POLICE & COMMUNITY PARTNERSHIPS FOR PROGRESS & EXCELLENCE"
                                           "EqIal Opportunity EmployM'




                                                  - 15 ­
                                                                                  APPENDIX IV



            U.S. DEPARTMENT OF JUSTICE RESPONSE


                                                   U.S. Department of Justice




                                                   Washington, D.C. 20530



                                                      NOV 2 1 2013

MEMORANDUM

TO:           Carol S Taraszka
              Regional Audit Manager
              Chicago Regional Audit Office
              Office of the Inspector General (OIG)                ~


FROM:
                                              ~
              Gene Patton, Assistant Deputy Chief
              Asset Forfeiture and Money Lau      .
                                                        J://
                                                         ection

SUBJECT:       DRAFT AUDIT REPORT for the Lansing Police Department's Equitable Sharing
               Program Activities

    In a memorandum to Mythili Raman, dated November 7, 2013, your office summarized the
status of the above referenced report and detailed actions necessary for final closure of the
outstanding audit report recommendations. The following is a list of the audit report
recommendations pertaining to the Lansing Police Department's (LPD) equitable sharing
program activity:

Recommendations:

        1. Require the Lansing PD to account for the DOJ equitable sharing funds
           separately from all other funds.

        2. Require the city of Lansing to establish procedures to ensure that it accurately
           reports its equitable sharing expenditures on its Schedule of Expenditures of
           Federal Awards.

        3. Require the Lansing PD to establish and properly maintain a DAG-71 log and
           reconcile sharing requests with receipts.

        4. Remedy the $3,061 in unallowable costs related to overtime expense for non­
           sworn personnel.

        5. Remedy the $12,563 in unsupported costs related to uniform allowance expenses.

        6. Remind the Lansing PD of the non-supplanting requirement specified in the
           Equitable Sharing Guide.



                                              - 16 ­
        AFMLS concurs with all findings and will request that the LPD implement the
recommended policies and procedures and provide documentation verifying that the corrective
actions have been taken. AFMLS will request that LPD reimburse its equitable sharing account
for the amounts of $3,061 and $12,563 to remedy the unallowable and unsupported expenditures.


cc:    Louise M. Duhamel, Ph. D.
       Assistant Director
       Audit Liaison Group Justice
       Management Division Denise

       Turcotte, Audit Liaison
       Criminal Division

       Richard P. Theis
       Assistant Director, Audit Liaison Group
       Internal Revenue and Evaluation Office
       Justice Management Division




                                             - 17 ­
                                                                APPENDIX V



              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the U.S. Department of
Justice Asset Forfeiture and Money Laundering Section (AFMLS) and the
Lansing Police Department (Lansing PD). The Lansing PD’s response letter is
incorporated in Appendix III of this final report, and AFMLS’s response is
incorporated in Appendix IV of this final report.

    The following provides the OIG analysis of the responses and a
summary of actions necessary to close the report.

Recommendation Number:

1.	   Resolved. In its response to our recommendation to require the
      Lansing PD to account for DOJ equitable sharing funds separately from
      all other funds, the Lansing PD stated that it agreed with the
      recommendation.

      In its response, AFMLS stated that it concurred with our
      recommendation and will request that the Lansing PD implement the
      recommended procedure and provide documentation verifying that
      corrective action has been taken.

      This recommendation can be closed when we receive evidence that the
      Lansing PD has implemented procedures to account for DOJ equitable
      sharing funds separately from all other funds.

2.	   Resolved. In its response to our recommendation to require the city
      of Lansing to establish procedures to ensure that it accurately reports
      its equitable sharing expenditures on its Schedule of Expenditures of
      Federal Awards, the Lansing PD stated that it agreed with the
      recommendation and has remedied this issue as of June 30, 2013.

      In its response, AFMLS stated that it concurred with our
      recommendation and will request that the Lansing PD implement the
      recommended procedure and provide documentation verifying that
      corrective action has been taken.

      This recommendation can be closed when we receive evidence that the
      Lansing PD has implemented procedures to ensure that it accurately




                                    - 18 ­
      reports its equitable sharing expenditures on its Schedule of
      Expenditures of Federal Awards.

3.	   Resolved. In its response to our recommendation to require the
      Lansing PD to establish and properly maintain a DAG-71 log and
      reconcile sharing requests with receipts, the Lansing PD agreed with
      the recommendation and stated that the city’s finance department will
      reconcile the DAG-71 requests to receipts.

      In its response, AFMLS stated that it concurred with our
      recommendation and will request that the Lansing PD implement the
      recommended procedure and provide documentation verifying that
      corrective action has been taken.

      This recommendation can be closed when we receive evidence that the
      Lansing PD has established and is properly maintaining a DAG-71 log
      and that the Lansing PD is reconciling its sharing requests with its
      receipts.

4.	   Resolved. In its response to our recommendation to remedy the
      $3,061 in unallowable costs related to overtime expense for non-sworn
      personnel, the Lansing PD stated that it agreed with the
      recommendation and will, for its fiscal year ending June 30, 2014,
      document, but not report, the appropriate amount of expenses that
      would otherwise be eligible uses of equitable revenue sharing
      proceeds.

      In its response, AFMLS stated that it concurred with our
      recommendation and that it will request that the Lansing PD reimburse
      its equitable sharing account the $3,061 unallowable overtime
      expense.

      This recommendation can be closed when we receive evidence that the
      Lansing PD has reimbursed its equitable sharing account the
      $3,061 unallowable overtime expense.

5.	   Resolved. In its response to our recommendation to remedy the
      $12,563 in unsupported costs related to uniform allowance expenses,
      the Lansing PD stated that it agreed with the recommendation and
      will, for its fiscal year ending June 30, 2014, document, but not report,
      the appropriate amount of expenses that would otherwise be eligible
      uses of equitable revenue sharing proceeds.




                                    - 19 ­
      In its response, AFMLS stated that it concurred with our
      recommendation and that it will request that the Lansing PD reimburse
      its equitable sharing account the $12,563 unsupported uniform
      allowance expense.

      This recommendation can be closed when we receive evidence that the
      Lansing PD has reimbursed its equitable sharing account the $12,563
      unsupported uniform allowance expense.

6.	   Resolved. In its response to our recommendation to AFMLS that it
      remind the Lansing PD of the non-supplanting requirement specified in
      the Equitable Sharing Guide, the Lansing PD did not comment.

      In its response, AFMLS stated that it concurred with our

      recommendation.


      This recommendation can be closed when we receive evidence that
      AFMLS has reminded the Lansing PD of the non-supplanting
      requirement specified in the Equitable Sharing Guide.




                                    - 20 ­
